No. 20-18
IN THE

Supreme Court of the United States
_________
ARTHUR GREGORY LANGE,
Petitioner,
v.
CALIFORNIA,
Respondent.
CERTIFICATE OF SERVICE
I, Jessica Ring Amunson, hereby certify that I am a member of the Bar of this
Court, and that I have this 11th day of December 2020, caused three copies of the Brief
of The DKT Liberty Project, Law Enforcement Action Partnership, Reason
Foundation, and Due Process Institute as Amici Curiae in Support of Petitioner to be
served via overnight mail and an electronic version of the document to be transmitted
via the Court’s electronic filing system to:
Brian Halligan Fletcher
Stanford Law School Supreme Court
Clinic
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-3345
bfletcher@law.stanford.edu

Samuel Thomas Harbourt
California Department of Justice
Office of the Solicitor General
455 Golden Gate Ave Suite 11000
San Francisco, CA 94102
(415) 510-3919
Samuel.Harbourt@doj.ca.gov

Counsel for Arthur Gregory Lange

Counsel for State of California

/s/ Jessica Ring Amunson
Jessica Ring Amunson

